The Library of Congress
Office of the Inspector General




                                  Library-wide

                    Learning at the Library:
                     Strategic Goals Should
                Drive Knowledge Investment

                     Audit Report No. 2001-PA-105

                                       April 2003
UNITED STATES GOVERNMENT                                     LIBRARY OF CONGRESS
Memorandum                                                    Office of the Inspector General

TO:           James H. Billington                                               April 30, 2003
              Librarian of Congress

FROM:         Karl W. Schornagel
              Inspector General

SUBJECT:      Learning at the Library: Strategic Goals
              Should Drive Knowledge Investment
              Final Audit Report No. 2001-PA-105


This transmits our final audit report on learning at the Library. The Executive Summary begins
on page i, and recommendations appear on pages 6, 8, 9, 10, 11, 12, 14, 15, 16 and 19.

The Deputy Librarian’s response to our draft report is briefly summarized in the Executive
Summary and in more detail after individual recommendations. Appendix A contains a
consolidated list of recommendations, Appendix B contains responses to the recommendations.

Based on the Deputy Librarian’s response to the draft report and the included corrective action
plan, we consider all the recommendations to be resolved. Accordingly, all corrective actions
should be implemented for these recommendations within one year of the date of the final audit
report (Library of Congress Regulation 1519-1).

We appreciate the cooperation and courtesies extended by the Service Units and the Internal
University during the audit.


cc: Deputy Librarian of Congress
    Acting Director of Operations Management and Training
 The Library of Congress                                             Audit Report No. 2001-PA-105
 Office of the Inspector General                                                        April 2003




                                   TABLE OF CONTENTS


 EXECUTIVE SUMMARY…………………………………………………………………… i

 INTRODUCTION………………………………………….………………………………..... 1

 BACKGROUND……………………………………………………………………………...                                                    1

 OBJECTIVES, SCOPE, AND METHODOLOGY………...…………………………………                                         3

 FINDINGS AND RECOMMENDATIONS……...…………………………………………... 5

 I.      Define Roles, Responsibilities, and Minimum Requirements For Staff Training…….        5
         A. Responsibility for Achieving the Library’s Training Goals Needs to be
             Assigned………………………………………………………………………….                                             5
         B. The Training and Development Advisory Board Needs Decision-Making
             Authority to Function Effectively………………………………………………..                             7
         C. Internal University Functions and Organization Need to be Defined and
             Adequately Resourced………………………………………..………………….                                     8
         D. The Internal University Needs to be More Involved in Strategic                     9
             Planning………
         E. Standards and Guidelines for the Systematic Design and Development of              10
             Instruction Need to be Implemented………………………………………..……                             11
         F. The Library Needs to Conduct Annual Training Assessments…………………..                  12
         G. Formalized Employee Development Plans Should be Developed……………….                   14
         H. Training Results Need to be Evaluated……………………………..……………

 II.     Base Training Budget on Defined Library Goals……………………………………... 16

 III.    Training Plans, Expenditures, and Activities Need to be Maintained and Tracked…..     18

 APPENDIXES

       A. Consolidated List of Recommendations………………………………………...                               20
       B. Formal Response to the Draft                                                         22
Report……………………………………………
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

                                   EXECUTIVE SUMMARY

Title 5, CFR 410, provides the requirements for the Library’s employee training program.
Specifically, it requires an annual assessment of agency training needs; the establishment of
priorities for training employees; provision for funds and staff according to these priorities;
records of agency training plans, training activities funded, individual employees trained, travel
payments, tuition payments, fees, and other necessary training expenses; evaluations of the
results of training; and a determination of how well agency training activities meet short and
long-range program needs by occupations, organizations, or other appropriate groups. In
addition, 5 USC, Chapter 41, requires each training program and plan to provide for adequate
administrative control.

The Library of Congress training program plays a key role in developing human capital and
improving performance. To be effective, the program must be designed and implemented to
address any gaps in the knowledge and skills needed to achieve the Library’s mission and goals,
and must be evaluated to ensure that it is functioning as intended.

The objectives of our audit were to determine whether the Library’s Internal University,
established in 1997, supports training and career development to meet Library and employee
needs; determine the effectiveness and quality of course design, content, delivery, and value;
assess the involvement of the service units in identifying common needs and special training;
and assess the current controls over training resources. We evaluated the training of Library
staff by reviewing FY 2000 training activities.

We found that the Library took positive steps to improve training by establishing a Internal
University, creating a Training and Development Advisory Board, and identifying mission
critical education. However, its policies and oversight need to be improved, including setting
standards for the quality of course design, content, and delivery; measuring the effectiveness and
value of courses; and increasing involvement of the service units in identifying training needs.
Although the General Accounting Office, the National Academy of Sciences, and KPMG have
evaluated various aspects of the Library’s training program and found it to be less than fully
effective, few of their recommendations have been implemented.

The Library’s training program is currently decentralized with the Internal University providing
some common administrative-type training and logistical services upon request, while the
service units take primary responsibility for their training needs. By identifying common
training needs, the Internal University has been able to offer Library-tailored in-house training at
less than half the cost of publicly offered training, and has provided direct support to Congress in
collaboration with the Law Library by providing emergency logistical support for Library-
sponsored Congressional courses. However, according to the Librarian in 1996, the Internal
University was intended to develop new types of mentoring, cooperative learning, and other
practical educational programs utilizing Library staff and coordinating these in-house skills to
equip more of the Library’s staff for the new era of knowledge.




                                                 i
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

There have been management discussions of whether the Library’s training functions should be
centralized or decentralized. Regardless of the organizational placement of the training
functions, specific roles and responsibilities for the training of Library staff must be defined,
incorporated into policy, and enforced to ensure a successful training program that supports the
mission and needs of the Library and its employees. Our findings and recommendations
exploring these issues are summarized as follows:

Define Roles, Responsibilities, and Minimum Requirements for Staff Training

The Library’s training policies are out of date. Many of the organizations and positions
identified as responsible for training at the Library no longer exist. In addition, the Internal
University does not function as envisioned because: its mission is unclear, Library of Congress
Regulations do not address the function and organization of the Internal University or the
training roles and responsibilities of other Library organizations; its funding may be insufficient
to meet the envisioned functions; and, Library managers are not required to utilize it. The
outdated policies and unclear roles and responsibilities of the Internal University and other
Library organizations may result in inefficiencies in training.

The areas that need to be improved include strategic planning, defining Training and
Development Advisory Board responsibility and authority, performing training assessments,
defining the purpose of the Mission Critical Education Training Matrix, performing training
evaluations, assigning responsibility for employee development, defining minimum standards for
the design and development of instruction, maintaining training records, and assigning training
accountability. We recommend that the Library’s Executive Committee define the training roles
and responsibilities of organizations, managers, and supervisors and distribute funding to meet
these responsibilities. These areas are discussed on pages 5 through 15.

Base Training Budget On Defined Library Goals

There is no Library standard based on employee amount or percentage of payroll for budgeting
for training. Nor does the Library use a zero-based approach. Instead, training budgets are
based on the prior year’s approved budget accelerated by an inflation factor. The Library’s
training expenditures for FY 2000 were less than half the industry average for government
organizations as reported by the American Society for Training and Development’s State of the
Industry Report.

Training budgets have not been adjusted for the additional infrastructure training costs needed
for computer security awareness and to fill anticipated skill gaps due to future employee
retirements. The Library has not prioritized employee training, nor provided funding based on
priorities.




                                                 ii
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

According to Office of Personnel Management guidance, certain steps are critical in developing
a training budget. First, training needs should be defined. Second, the training needs should be
incorporated into employees’ Individual Development Plans. Third, the Individual Development
Plans should be used to prepare annual training plans. The successful completion of these steps
supports the development of sound and defensible training budgets. We found, however, that the
Library has not successfully completed any of these steps. As a result, its annual training
budgets are not directly tied to its training needs.

By not developing a training standard based on strategic goals, the Library is not ensuring that
minimum training needs are being met. We recommend that the Executive Committee require
training budgets to be based on a standard other than historical cost, preferably actual training
needs (a zero-based approach). A more complete discussion of training budgeting is on pages 16
and 17.

Training Plans, Expenditures, and Activities
Need to be Maintained and Tracked

The Library does not know the actual cost of training, whether the training paid for is meeting its
training needs, or whether training activities are based on documented needs as identified in the
Mission Critical Education and Training Matrix. By not gathering and analyzing this
information as a collective unit, the Library is unable to make effective training decisions. We
recommend that the Library track all costs and evaluate training effectiveness. A more complete
discussion of training records is on pages 18 and 19.

In responding to the draft report, the Deputy Librarian concurs that the Library of Congress
training program plays a key role in developing human capital and improving performance.
Furthermore, the Deputy Librarian concurs in principle with all our recommendations and states
that they will serve as a blueprint for strengthening and redefining the Library’s training
initiative. Because of the importance of developing human capacity, the Deputy Librarian has
realigned the Library of Congress Internal University to report to the newly formed Operations
Management and Training Office.

Our complete list of recommendations is included as Appendix A and the Deputy Librarian’s
written response to the recommendations is included as Appendix B. We consider the Deputy
Librarian’s comments and actions responsive to all of the report’s recommendations.




                                                iii
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

                                       INTRODUCTION

This report presents the results of our audit of the effectiveness of the Library’s training
program. The Library’s training program is decentralized with service units having primary
responsibility and authority for their training needs. Service units are to collaborate on their
training needs via a Training and Development Advisory Board composed of a representative
from each service unit with authority to make training decisions. Training and Development
Advisory Board decisions are to be implemented by the Library’s Internal University and the
service units. Training liaisons from each service unit provide administrative and logistical
support. However, there is no requirement for a service unit to participate with the Board or
coordinate with the Internal University on their training needs.

During our fieldwork, the Internal University had 11 employees and an acting director whose
duties since the Internal University’s inception in 1997 has also included directing the Library’s
Integrated Support Services. The Library spent $1,524,198 on training in FY 2000. Training
budgets are based on the prior year’s approved budget accelerated by an inflation factor. An
October 2002 memorandum from the Deputy Librarian realigned the Internal University under
the newly created Office of Operations and Training. The existing Training and Development
Chief was reassigned to act as the program manager for the Executive/Middle Management and
Staff Development Program in the new office.

A Mission Critical Education and Training Matrix identifies immediate training needs essential
to Library mission accomplishment. The matrix was designed to be used as a reference guide for
the creation of Individual Development Plans. The Library of Congress Human Resources
Strategic Plan, FY 2000 – 2005, has goals addressing employee development. These goals
include the implementation of Individual Development Plans linked to Library strategic goals.

According to the Code of Federal Regulations (CFR), agencies have the authority to administer
their own training programs. However, they must meet the requirements of 5 CFR 410 to ensure
fair distribution of training; non-discriminatory selection for training; authorized purposes for
training; and maintenance of training records that document the who, what, where, when, cost,
provider, justification, and applicability to duty performance of all training provided by the
agency.

                                        BACKGROUND

In 1995, the Librarian tasked the Deputy Librarian to develop a proposal for establishing a
Internal University at the Library of Congress. During this time, GAO was completing an audit
of the Library and had identified deficiencies in Library training. Subsequently in the same year,
the Deputy Librarian was reassigned as the Library’s Senior Advisor for Staff Development and
Staff Transition.

The Internal University was to replace the Library’s decentralized training approach with a
coordinated program that would help ensure Library staff competency in various Library fields
of activity. Library managers were to play a critical role in identifying the appropriate mix of


                                                 1
The Library of Congress                                                Audit Report No. 2001-PA-105
Office of the Inspector General                                                           April 2003

courses within respective curricula. In turn, many highly talented and experienced staffers were
to embrace the opportunity to teach or mentor. The strategy was to create a continuous learning
organization.

The Librarian envisioned this Internal University as ensuring that the overall development
strategy was linked to achieving the Library’s mission, individual competencies were congruent
with the Library’s strategy and vision, Library strategies gained staff commitment in all areas,
and enhanced training and organizational effectiveness added value to the Library. In addition,
the Senior Advisor for Staff Development and Staff Transition noted that a Internal University
would provide visibility of major skills/competencies/job shifts, leverage educational assets by
sharing resources, improve learning efficiency, eliminate redundancy, reduce training costs,
reduce the cycle time of training needs assessment and course development, transfer knowledge
through common training platforms, and provide a coherent and comprehensive training
program.

In early 1996, GAO reported that the Library had not provided meaningful training for its
employees for a number of years, had not conducted training needs assessments, had offered a
very small number of courses, had not offered any management or leadership development
training; had not related training content to on-the-job needs or performance, had not provided
adequate guidance on training and development needs and activities, and had not afforded its
training organization with visibility. GAO also stated that both the Training and Development
Office and Human Resources Services had a poor reputation for providing services.

Later in 1996, subsequent to GAO’s assessment, the Library established the Training and
Development Advisory Board. Board members were to be high-level managers who could
evaluate and make decisions on training and development initiatives and programs. To support
the goal of providing in-house instructors and mentors, the Senior Advisor for Staff
Development and Staff Transition envisioned the development of a Library knowledge database.
However, initial efforts to establish an on-line information system were stymied due to lack of
funding. The concept of staff training staff was discussed with service unit leaders and Board
members. Though the concept appeared valid in theory, many did not support the approach due
to a perceived productivity loss of those providing the instruction. Managers felt the use of
vendors to provide training was more cost effective.

During an Executive Committee meeting on September 16, 1996, the Librarian noted his
disappointment that the Internal University did not progress further, but believed the concept was
viable. The Internal University functions were transferred on a temporary basis to the Chief of
the Training and Development Office. The Training and Development Office (TDO) was
decentralized in the early 1980s but was returned to a centralized function in the early 1990s at
the direction of Congress. As a result of the reorganizations, the service units viewed TDO as
non-responsive and created shadow organizations to address staff training and development.


On October 18, 1996, the TDO Chief briefed the Executive Committee on a proposed Internal
University budget and TDO/Internal University relationship. While both the TDO and Internal


                                                2
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

University had similar responsibilities, TDO’s primary focus was to help Library managers and
staff do their best today while the Internal University’s primary focus was to help the Library
workforce transition in anticipation of employee retirements in the coming years. Additional
funding for the Internal University was not supported by the Executive Committee and the
Deputy Librarian tasked the TDO Chief and the Training and Development Advisory Board to
recommend a strategy to integrate the concept of a Internal University with the Training and
Development Office and name the resulting organization, recommend immediate actions to
address the most urgent training needs assuming current resources, and begin development of a
strategic plan for training and development to meet the Library’s future needs.

On March 23, 1997, the TDO Chief and Board presented to the Executive Committee several
recommendations that included merging the functions of the TDO and Internal University,
transferring the TDO budget to the Internal University, naming the merged organization the
Library of Congress Internal University, organizationally placing the merged function under the
Deputy Librarian, and establishing a new senior level position of Internal University
Administrator. While these recommendations were approved, recommendations requiring
additional funding were not approved.

                         OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to determine whether the Library of Congress Internal University
supports the planning, development, and delivery of training and career development to meet
Library and employee needs; determine the effectiveness and quality of course design, content,
delivery, and value; assess the involvement of the service units in identifying common needs and
special training; and, assess the current controls over training resources.

The criteria used to evaluate the Library’s training program included:

    •   5 CFR 410, Training
    •   5 USC 4103, Establishment of Training Programs
    •   LCR 2017-1, Staff Training and Employee Development Policies in the Library of
        Congress
    •   LCR 2017-1.1, Training Responsibilities and Procedures
    •   LCR 2017-1.2, Supervisory Training Program
    •   LCR 212-1, Functions and Organization of the Human Resources Services
    •   LCR 212-6, Functions and Organization of the Directorate of Personnel
    •   Library of Congress Human Resources Strategic Plan, FY 2000 – 2005
    •   Office of Personnel Management Training Policy Handbook
    •   Office of Personnel Management Training Needs Assessment Handbook

We interviewed service unit directors, infrastructure directors, Internal University key staff,
Training and Development Advisory Board members, and training liaisons. We reviewed
training activities and information relevant to FY 2000 including training budget object class
obligations and expenditures, procurement records, training records, strategic plans, annual


                                                 3
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

performance plans, business plans, Executive Committee records, Board records, course records,
the Internal University web site, and the Mission Critical Education and Training Matrix.

As a benchmark, we compared the Library’s training costs for calendar year 2000 to those in the
American Society for Training and Development’s report entitled The 2002 ASTD State of the
Industry Report, which provided information on the training activities of more than 1,000
organizations (including federal government) for 2000. The cost information reported by the
Society and gathered for the Library comparison included the costs for contractors, tuition, and
travel (for instructors), but did not include the salaries of employees taking the training. Because
the organizations surveyed by the Society vary widely in purpose and in the size of their budgets,
their training costs are compared as a percentage of their payrolls. We obtained the Library’s
payroll cost for FY 2000, calculated the percentage of training cost to payroll, and compared this
percentage to the average calculated by the Society.

We conducted our fieldwork from December 2000 through July 2002. Fieldwork was
interrupted due to workload demands of our office. We conducted our audit in accordance with
generally accepted government auditing standards.




                                                 4
The Library of Congress                                               Audit Report No. 2001-PA-105
Office of the Inspector General                                                          April 2003

                             FINDINGS AND RECOMMENDATIONS

The Library’s training policies and oversight need to be improved. As part of adopting more
strategic and performance-based management practices, the Library must be prepared to focus on
how best to invest in Library staff, or human capital, to achieve high performance of Library
missions and strategic goals. To achieve this high performance, the Library needs to place
particular emphasis on the training and development of Library staff to ensure that they have the
competencies—knowledge, skills, abilities, and behaviors—needed to successfully perform and
contribute to the Library’s mission-critical activities.

To design and implement an effective training program, the Library must (1) identify the
competencies needed to achieve specific missions and goals and measure the extent to which
Library staff exhibit those competencies; (2) identify training and development requirements to
be addressed, and once those training requirements are met; (3) evaluate the extent to which the
programs are actually increasing employees’ individual competencies and individual and overall
organizational performance levels. Training is an important function and the Library needs to
accelerate employee development and retooling as more Library employees become eligible for
retirement.

I.      Define Roles, Responsibilities, and
        Minimum Requirements for Staff Training

Although the Internal University is providing learning opportunities in direct support of the
service units, the mission of the Internal University needs to accurately reflect Library
expectations as envisioned by the Executive Committee and the Training and Development
Advisory Board. According to Executive Committee decision documents creating it, the Internal
University was to provide Library-wide capabilities to address training to support succession
planning and take advantage of in-house knowledge by coordinating with internal Library
program providers to offer highly specialized training such as language, librarian, and subject
area courses, and to absorb the Training and Development Office.

The Internal University was not set up for success. Clearly outlined expected business results
were not established by management, nor were adequate funds provided. The major areas that
need to be improved include strategic planning, defining Training and Development Advisory
Board responsibility and authority, performing training assessments, defining the purpose of the
Mission Critical Education Training Matrix, performing training evaluations, assigning
responsibility for employee development, defining minimum standards for the design and
development of instruction, maintaining training records, and assigning training accountability.

A.      Responsibility for Achieving the Library’s
        Training Goals Needs to be Assigned

No one has been assigned responsibility for seeing that Library training goals are achieved. Nor
has anyone been assigned responsibility for establishing priorities for training employees and
providing funds and staff according to these priorities. While a Mission Critical Education and


                                                5
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

Training Matrix was developed, there is no requirement that training funds be utilized to address
the minimum training needs identified by the Matrix.

Executive Committee and Training and Development Advisory Board meeting documents
outlined the requirements for the Internal University organization and functions, and directed
that the Internal University absorb the functions of the Training and Development Office. As a
result, Library of Congress Regulations addressing training are no longer valid and cause
confusion as to responsibilities and authorities. For example:

    •   The Training Officer and the Training Advisory Committee discussed in Library of
        Congress Regulation (LCR) 2017-1, Staff Training and Employee Development Policies
        in the Library of Congress, and LCR 2017-1.1, Training Responsibilities and
        Procedures, no longer exist.

    •   There is no reference to the Training and Development Advisory Board in any of the
        training LCRs.

There is no assurance that training funded by the Library is achieving Library training purposes.
Since there is no longer a Training Officer, many of the responsibilities assigned to that position
by LCR 2017-1.1 such as assembling, analyzing, and synthesizing training requirements from
departments; proposing training courses to meet the Library’s needs; and preparing and
recommending an annual training budget to respond to the general employee development needs,
mandatory training needs, and such other programs as may be designated, are not being
accomplished.

Recommendation

The Executive Committee should revise LCRs 2017-1 and 2017-1.1 to clearly define the
authorities and responsibilities of all Library components for training, and ensure that training
resources are distributed accordingly.

Library Response and OIG Comment

The Deputy Librarian concurs. The Library’s training program is decentralized and draft revised
training LCRs assign responsibility to each service and support unit to determine the training and
development needs of its employees in order to accomplish the unit's mission and business plan,
and to ensure these needs are met. As noted previously, the Deputy Librarian established the
Operations Management and Training Office (OM&T) and through its direction, the Internal
University (LCIU) will provide/coordinate training and development programs and activities that
are common across the Library. The Chief of Training, OM&T/LCIU, has revised the training
LCR to reflect appropriate authorities and responsibilities for Training and Development at the
Library. The draft revised LCR is expected to be circulated soon to members of the Operations
Committee for comment, followed by the Executive Committee.
The Deputy Librarian’s actions are responsive to our recommendation.



                                                 6
The Library of Congress                                               Audit Report No. 2001-PA-105
Office of the Inspector General                                                          April 2003

B.      The Training and Development Advisory Board Needs
        Decision-Making Authority to Function Effectively

The Board’s mission and authority have not been clearly defined. Service units have developed
their own in-house training resources and do not perceive a need for the Board, resulting in
minimal participation. While the infrastructure offices have been invited to participate as
members of the Board, many do not desire to participate or participate on an occasional basis.
Because the infrastructure offices normally provide or generate the common training needs, it is
important that they participate fully as a Board member. For example, when Financial Services
or Human Resources Services changes one of their processes, service units may require training
in the new process. However, there is no consequence if a service unit does not send a
representative.

We attended a meeting of the Board and noted that most members did not participate fully in the
assigned task of identifying and meeting technical training needs, and that members were not
receptive to the Internal University’s proposal on how to meet the Library’s technical training
needs. Board members indicated that they are reluctant to speak up when the Deputy Librarian
makes suggestions to the Board. Though the Board approved guiding principles and identified
specific roles and responsibilities effective July 2001, some members indicated that they were
unclear about their purpose and authority.

There is a perception by the Board members that upper management does not support their
efforts. A recent example is the Management Training and Education Program proposed by the
Board to the Executive Committee. The Deputy Librarian had requested the Board identify their
training requirements and develop a process to address those needs. The Board agreed upon a
process as documented by their proposed Management Training and Education Program. The
Executive Committee voted not to adopt the process.

Sound business practices suggest that regardless of size and stage of development of a board, a
“board charter” can provide a clear mandate regarding purpose, responsibility, authority, and
performance, and periodic assessments can identify opportunities for improvement. The Board
only recently developed a proposed charter even though it has been in existence for several
years. An approved charter should provide: an overview of board responsibilities; information
on board composition; criteria for member selection; relationships with the Deputy Librarian,
service units, and employees; and board leadership, meeting procedures, performance, and
committees. The proposed charter does not address most of these areas. In addition, the Board
has not performed self-assessments to identify opportunities for improvement.




                                                7
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

Recommendation

The Executive Committee should require that every service unit and infrastructure office assign
a Training and Development Advisory Board member with decision-making authority. The
Executive Committee should also require the Training and Development Advisory Board to
annually update the Mission Critical Education Training Matrix utilizing the Office of Personnel
Management’s Training Needs Assessment Handbook to ensure that training needs are
prioritized. The Training and Development Advisory Board should approve all training until
skill gaps have been eliminated.

Library Response and OIG Comment

The Deputy Librarian concurs in principle. The Training and Development Advisory Board has
played an important role in identifying the mission critical training needs and the creation of a
learning matrix. However, many of their recommendations have been stymied because of their
unclear role, responsibility, and authority.

The Deputy Librarian has proposed that the Library’s Operations Committee (members are
deputies of the Service Units and directors of the Support Units) be responsible for establishing
the policies and priorities for Library-wide training and development programs. This
realignment, specifically addressed in the draft training LCR, will ensure training is addressed by
senior management and is part of the strategic planning and budgeting process. The Operations
Committee has the authority to make and implement decisions involving Library-wide training
and, if desired, can charter training and development subcommittee(s) to perform assigned tasks.
As a result of this realignment, the Training and Development Advisory Board will be dissolved.
Library-wide training coordination activities will continue through the Service and Support Unit
Training Liaisons and the Internal University.

The Acting Chief of OM&T and the Chief of Training, collaborating with the Operations
Committee, Service and Support Units, and appropriate stakeholders, will propose standards for
instructor-led and on-line training courses as well as the criteria for evaluating whether the
training has enhanced on-the-job skill levels or has successfully educated staff about a particular
initiative.

The Deputy Librarian’s actions are responsive to our recommendation.

C.      Internal University Functions and Organization
        Need to Be Defined and Adequately Resourced

The Internal University was created in 1997, yet there is no LCR addressing its function and
organization. While the Executive Committee has approved a mission statement, they have not
provided a policy mandating utilization of the Internal University. The Internal University is a
central feature of the Library’s undocumented training program. By creating the Internal
University, the Library intended to effectively eliminate duplicative training within the Library.




                                                 8
The Library of Congress                                                Audit Report No. 2001-PA-105
Office of the Inspector General                                                           April 2003

When the Internal University was established, the Training and Development Office budget and
staff provided the only resources for operations. There was no budget or staff provided to
develop Library-specific training utilizing in-house experts that had been trained on how to
develop and instruct courses. The Executive Committee noted that the decentralized training
funds provided to the service units would supplement the Internal University’s budget, however,
the Executive Committee did not explain how service unit’s decentralized training resources
would be committed to finance the Internal University. Nor has the Executive Committee
supported the subsequent Training and Development Board Management Decision Paper
submissions for items such as a Learning Management System.

Training and Development Advisory Board members and service unit heads are unclear as to the
Internal University’s function. Many expressed the belief that the Internal University was to
provide infrastructure-type training and mandatory training at no cost to the service units. Many
also believe that the Internal University was to develop Library-specific training utilizing in-
house experts that had been trained on how to develop and instruct courses. While the use of
some in-house experts are providing necessary Human Resources Services, Financial Services,
and Information Technology Services training, the general use of in-house instructors is not
viewed as cost effective by many managers resulting in reluctance to provide staff as instructors.
There is no incentive for managers to either utilize the Internal University or provide staff to
develop and instruct courses.

In order to increase funds available to provide Library-wide infrastructure-type training at a
lower cost or no cost to the service units, the Internal University reorganized and replaced the
higher graded employee development and training personnel with lower graded program
assistants. Consequently, the Internal University now performs mostly course brokering, limited
administration, marketing, and logistical support.

Recommendation

As recommended in I. A. the Executive Committee should revise LCRs 2017-1 and 2017-1.1 to
clearly define the authorities and responsibilities of all Library components for training, and
ensure that training resources are distributed accordingly.

Library Response and OIG Comment

As noted in I. A., the Deputy Librarian concurs.

The Deputy Librarian’s actions are responsive to our recommendation.

D.      The Internal University Needs to Be More Involved in Strategic Planning

While the Internal University provides Annual Program Performance Plans (AP3s) for yearly
planning and recently began reviewing service unit draft AP3s for training implications, it does
not have a Strategic Plan to guide yearly goals, nor is it involved in Library-wide strategic
planning. There is no assurance that Internal University strategic goals are tied to Library


                                                   9
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

strategic goals, or that strategic goals of service units consider training implications and
coordinate with the Internal University. The Internal University developed a proposed strategic
plan, however, the Acting Director of the Internal University has not approved and provided the
plan to the Office of Planning, Management, and Evaluation. Executive Committee and
Training and Development Advisory Board documents outlining the requirements for the
Internal University organization and functions require it to develop a five-year strategic plan and
be involved in Library-wide strategic planning.

Additionally, service units have not set up procedures or processes to ensure that the Internal
University is utilized in meeting the Library’s goals. Though the Internal University is providing
training programs to meet some strategic needs, such as computer security awareness training, it
is not seen as a strategic partner and therefore rarely included in Library-wide strategic planning.
Only recently did the Chief of the Training and Development Office for the first time participate
in the recent Library strategic planning off-site and ensure that learning requirements were
addressed.

Recommendation

The Executive Committee needs to involve the Internal University in Library-wide strategic
planning and the Training and Development Advisory Board, in consultation with the Director,
Integrated Support Services/Internal University, needs to approve a Strategic Plan for the
Internal University.

Library Response and OIG Comment

The Deputy Librarian concurs. During January 2002, the Chief of Training participated in an
off-site retreat to draft the Library’s 2003-2008 Strategic Plan. Goal four was added to the list of
objectives committing the Library to: Maintain an outstanding workforce with the skills,
resources, and dedication to deliver a range of cutting-edge services.

The Deputy Librarian’s actions are responsive to our recommendation.

E.      Standards and Guidelines for the Systematic Design and
        Development of Instruction Need to be Implemented

Although the Internal University collaborates with the Training and Development Advisory
Board and the service units while developing new training modules or customizing off-the-shelf
courses for Library use, there are no Library-wide standards or guidelines for the systematic
design and development of instruction, either by instructor-led or on-line delivery. Because
there is no assurance that development of training modules or collaboration in training design is
being accomplished, success in design factors and lowered costs might not be attained.
Furthermore, many modules being designed within individual service units might become cost
prohibitive for Library-wide implementation.
In its report Human Capital: Design, Implementation, and Evaluation of Training at Selected
Agencies, GAO noted that high-performing organizations consistently approached the design and


                                                10
The Library of Congress                                                Audit Report No. 2001-PA-105
Office of the Inspector General                                                           April 2003

implementation of their training and development programs by (1) identifying the knowledge,
skills, abilities, and behaviors employees need to support organizational missions and goals, and
measuring the extent to which employees actually possess those competencies; (2) designing and
implementing training programs to meet any identified gaps in those needs; and (3) evaluating
the extent to which training programs actually increase employees’ individual competencies and
performance levels as well as overall organizational performance.

Recommendation

The Training and Development Advisory Board needs to issue guidance and standards for the
design and development of instructor-led and on-line training courses/modules.

Library Response and OIG Comment

As noted in I. B., the Deputy Librarian concurs in principle.

The Deputy Librarian’s actions are responsive to our recommendation.

F.      The Library Needs to Conduct Annual Training Assessments

Most Library managers do not conduct annual comprehensive training needs assessments and
subsequently do not provide any assessment results to the Training and Development Advisory
Board or to the Internal University. The Internal University does not conduct Library-wide
training needs assessments. Only recently, the Internal University began utilizing available in-
house resources such as strategic plans, Annual Program Performance Plans, Management
Decision Papers, and Status of Limited Control Reviews to identify Library training needs.

The last comprehensive Library-wide needs assessment was performed in May 1996, prior to
development of the Mission Critical Education Training Matrix in 1997 by the Training and
Development Advisory Board. The Board based the Matrix on a skills gap assessment by a
contractor with input from the Board. The Matrix was developed to identify the minimum
training needs for succession planning and to address skill gaps. The Internal University
Mission Critical Education Training Matrix remains essentially the same since its creation in
1997.

Since Library training needs are not annually assessed, the Library may be missing opportunities
to consolidate training requirements and obtain a lower cost per employee for training. In
addition, we found no linkages between the Mission Critical Education Training Matrix and
Internal University courses offered in FY 2000. As a result, there is no evidence that Library
training needs are prioritized. For example, no supervisory training courses were regularly
scheduled during FY 2000 to meet the Library requirement that a new supervisor complete 40
hours of supervisory training in the first six months following initial supervisory appointment,
and complete an additional 40 hours within one year of appointment.
Title 5, CFR 410.203, requires heads of agencies to review, at least annually, organizational,
occupational, and individual needs for training. The OPM Training Policy Handbook notes that


                                                11
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

a systematic and continuing review of current and foreseeable organizational training needs
provides a realistic basis upon which to plan, program, budget, direct, and evaluate a viable
training program. Such reviews consider the broader issues and forces that impact
organizational and program effectiveness as well as occupational and individual training needs.
Individual training needs are assessed within the context of the organization’s strategic goals in
order to ensure employees’ performance competency and development.

The Internal University sees its role as providing vendors (or in-house instructors) and logistics
for training needs presented by the service units and the Training and Development Advisory
Board. The Internal University also sees the Board as one of the methods for service units to
present their training needs. According to the Internal University, it has had little success in
determining service unit annual training needs through the use of cooperative Annual Program
Performance Plans or one-on-one discussions.

Recommendation

The Training and Development Advisory Board should perform annual training needs
assessments that are based on a Mission Critical Education Training Matrix that is updated
annually. Information should be gathered from multiple sources such as top management,
supervisors, and individual development and strategic plans.

Library Response and OIG Comment

The Deputy Librarian concurs in principle. The draft revised training LCR requires service and
support units to conduct regular training and development needs assessments to ensure all
training and development needs are identified. The Operations Committee will validate annually
the Mission Critical Education Training Matrix. The Office of Operations, Management and
Training (OM&T), collaborating with appropriate stakeholders, will develop a recommended
format for conducting and recording training and development needs assessments by June 1,
2003.

In addition, the Deputy Librarian has directed each service and support unit to brief him on their
capability for administering their own mission critical training and to have them identify future
learning requirements. The Acting Chief of OM&T and the Chief of Training were directed to
review resource needs and capability for administering Library-wide training; e.g., computer
security, ethics, work place issues, leadership programs, skill retooling, and career development.
These discussions, reviews, and briefings will result in a library-wide learning policy and
Strategic training plan for implementation in FY 04.

The Deputy Librarian’s actions are responsive to our recommendation.


G.      Formal Employee Development Plans Should be Developed

The Library does not require any formal employee development planning such as Individual


                                                12
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

Development Plans utilized by other government agencies. There are no written policies or
procedures to hold managers, supervisors, and training participants accountable for transferring
learning to the job. Managers and supervisors generally do not counsel staff on training needs or
opportunities or discuss what has been learned in training. There are no career counselors
available in the Library.

In addressing career development, the Executive Committee approved the Library of Congress
Human Resources Strategic Plan, FY 2000 – 2005, that includes goals related to employee
development. Specifically, Goal 3 of the plan identifies the following targets: “By 2004, all
employees have Individual Development Plans linked to Library and program strategic goals…”
and: “By mid-2004, 20 percent of all employees have begun the training defined in their IDPs.”
In defining its strategy, the Plan identifies Change Project 12, which states, “We will design and
implement processes enabling the Library to: define career paths…and provide career
counseling and Individual Development Plans for all staff.”

So far, there has not been any effort to implement the strategy to accomplish the two targets or
provide career counseling. In addition, Strategic Plan Goal 3 provides the following targets:
“By 2003, all incumbent Library leaders (team leaders, supervisors, managers, and executives)
will have completed the Library’s leadership development program….” The stated strategy is:
“We [will] create a leadership development program that will build leadership abilities from
within at all levels.” Yet, the Training and Development Advisory Board’s FY 2003
Management Decision Paper addressing this target was not supported.

Without formal employee development planning, there is no assurance that individual staff
development is identified and addressed, or that succession planning is being identified at the
individual level. There is also no assurance that employees are shown the most efficient and
effective means to utilize Library resources such as computers.

Recommendation

The Executive Committee should task the HR-21 Steering Committee to implement the change
projects pertinent to training and development such as having Individual Development Plans
linked to the Library’s strategic goals, and defining career paths and providing career counseling
as outlined in the Library of Congress Human Resources Strategic Plan, FY 2000 – 2005.

The Internal University should regularly schedule supervisory training courses to meet the
requirement that a new supervisor complete 40 hours of supervisory training in the first six
months following initial supervisory appointment, and to complete the additional 40 hours
required within one year.


Library Response and OIG Comment

The Deputy Librarian concurs in principle. Having staff plans link to and reflect overall
strategic goals and objectives represents a major cornerstone in preserving and maintaining the


                                                13
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

Library’s human capital. However, it is important that the Library first adopt a performance
management policy and framework for evaluating effectiveness. Managers and supervisors will
need to be trained on the performance management concept and its implementation. The Acting
Chief of OM&T and the Chief of Training have been directed to work with the Director of
Human Resources Services and her new performance management program manager to prepare
a briefing for HR-21 members and the Operations Committee. Their recommendations will help
to shape a performance management policy for approval and adoption by the Executive
Committee by August 30, 2003.

The draft revised training LCR requires 80 hours of supervisory training for new Library
supervisors. In addition, the Acting Chief of OM&T and the Chief of Training are tasked with
making recommendations for a Library-wide training policy that identifies the principals and
guidance for supervisory/management (current and new) mandatory training, leadership
development, and senior-level candidate development by June 1, 2003. The proposed
Management Training Education Program will be updated through polling respective senior
managers on suggestions for mandated and required supervisor/manager training, as well as
reviewing recommendations from the Senior Executive Task Force for implementing an
executive candidate development program.

The Deputy Librarian’s actions are responsive to our recommendation.

H.      Training Results Need to be Evaluated

Although the Internal University has performed some return on investment evaluations, such as
the evaluation of the Facilitative Leadership program, the Library does not have a process to
evaluate the results of training and how well training activities meet short and long-range
program needs by occupation, organization, or other appropriate group. Nor are there any
policies and procedures to measure the impact of training on improved job performance. No
written policies or procedures exist for tracking changes in employee performance after training
or for tracking the value of training toward achieving the Library’s mission and goals.

Training activities are not tracked to the Library’s short and long-range program needs. While
the Internal University is providing courses desired by the service units, there is no mechanism
to determine whether training is actually applied to the job. The Internal University evaluates
whether the attendee liked course content, course materials, and course instruction, but it does
not survey trainees and managers to determine how the training was used, if the training resulted
in efficiencies, if the training resulted in a better understanding of a subject/process, and if the
supervisor explained the purpose of the training in relation to the trainee’s job. As a result, the


Library has no way of monitoring whether the training paid for is meeting the Library’s
documented training needs identified in any Library training standards document, including the
Training Matrix.




                                                 14
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

Recommendation

The Internal University needs to revise Library training evaluations to include determining
whether the course meets the Library’s short and long-range needs, and training needs based on
the Mission Critical Education and Training Matrix. A follow-up evaluation should be
performed at some period of time after the course to determine if the course attendee is utilizing
the training in their job.

Library Response and OIG Comment

As noted in I. A., the Deputy Librarian concurs in principle.

The Deputy Librarian’s actions are responsive to our recommendation.




                                                15
The Library of Congress                                                    Audit Report No. 2001-PA-105
Office of the Inspector General                                                               April 2003

II.     Base Training Budget On Defined Library Goals

There is no Library standard, such as a per employee amount or percentage of payroll, for
budgeting for training. Nor does the Library use a zero-based approach. Instead, training
budgets are based on the prior year’s approved budget accelerated by an inflation factor.
Training budgets have not been adjusted for the additional infrastructure training costs and
additional costs associated with skill gaps identified as part of succession planning, or additional
skills needed for the Library’s new initiatives.

In an attempt to compare the Library’s FY 2000 training costs to the American Society for
Training and Development’s calendar year 2000 industry average, we gathered Library training
cost information from several sources, such as the Library’s Federal Financial System and the
individual service units. In addition to collecting the obligations in multiple budget object
classes, we collected training costs for courses developed and presented in-house (such as
Library Services and Information Technology Services) and all of the Internal University costs
to arrive at an estimated cost for FY 2000 training.

We compared the Library’s training dollars as a percentage of payroll; a standard used by
training experts and GAO. The Library’s .68 percent is significantly less than the government
average of 1.7 percent of payroll as reported by the American Society for Training and
Development in its 2002 State of the Industry Report. The Library would have needed to spend
an additional $2,287,905 for training to meet the government average.

Several service units complained that training allocations were arbitrary and seen as favoring
some service units. As indicated by figure 1 on the next page, service unit complaints regarding
unevenness of training allocations may be substantiated. The graph shows training expenditures
as a percentage of payroll costs for each of the Library’s budget organizations. We are not
advocating that all Library units should necessarily receive the same percentage of funding, or
that the Library has the same training needs of other federal agencies. Rather, the figure
demonstrates the need for information, currently not used by the Library, for managing its
training program.

Because Library-wide training information is not recorded, the Library does not know whether
training budgets are based on documented needs as identified in the Mission Critical Education
and Training Matrix. Though the Training and Development Advisory Board has attempted to
prioritize training, it is left to the discretion of the service units as to which training they will
fund and how it will be funded.

Recommendation

The Executive Committee should develop a budget standard for training based on needs rather
than history. We believe a zero-based method along with an updated Mission Critical Education
and Training Matrix should be used.




                                                  16
The Library of Congress                                                         Audit Report No. 2001-PA-105
Office of the Inspector General                                                                    April 2003

Library Response and OIG Comment

The Deputy Librarian concurs in principle. Scheduled training briefings will allow the Deputy
Librarian to gain a better understanding of the learning requirements, capacity, and resource
needs associated with mission critical and Library-wide training. During these briefings, senior
managers will be asked about their training costs and requirements and directed to reflect these
needs in their AP3s and budget concept papers for FY 2005. In addition, the Acting Chief of
OM&T and the Chief of Training will include business costs for manager/supervisor, leadership
development, upward mobility (intern programs), and senior level training in their report due on
June 30, 2003. This information will be used in FY 2005 budget discussions with the Chief
Financial Officer and Executive Committee on shaping a budget standard for training.

The Deputy Librarian’s actions are responsive to our recommendation.


               Figure 1. FY2000 TRAINING AS A PERCENT OF PAYROLL BY BUDGET ORGANIZATION




          American Folklife Center (LS)
           Area Studies Collections (LS)
         Public Service Collections (LS)
                         Cataloging (LS)
                    Law Library (LAW)
                  National Services (LS)
                        Acquisitions (LS)
                       Preservation (LS)
           Copyright - Licensing (COP)
    Integrated Support Services (LIBN)
  Congressional Research Service (CRS)
                Copyright - Basic (COP)
                Books for the Blind (LS)
                 Security Office (LIBN)
               Human Resources (LIBN)
  Office of the Librarian - Basic (LIBN)
                   Library Services (LS)
            Cataloging Distribution (LS)
              Financial Services (LIBN)
         Information Technology (OSI)
        EEO/Dispute Resolution (LIBN)
            ASTD Government Average

                                       0.00%              0.60%                  1.20%                  1.80%




Abbreviations: LIBN – Office of the Librarian, LS – Library Services, COP – Copyright, CRS – Congressional
Research Service, and OSI – Office of Strategic Initiatives.




                                                     17
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

III.       Training Plans, Expenditures, and Activities
           Need to be Maintained and Tracked

Studies since 1990 by GAO, the National Academy of Sciences, and KPMG have reported poor
data collection, monitoring, and reporting of Library training activities. Despite
recommendations by these studies for improving the tracking of training, we found only minimal
training records. While service units do maintain training records for their employees and the
Internal University maintains records for those employees participating in Library-wide training,
consolidated records of training plans, expenditures, and activities are not maintained.

The Library does not track all training, including the total number of employees trained and the
total costs of training. Specifically, in-house courses are not included as training costs. In-house
trainers, e.g., Congressional Research Service, Library Services, and Information Technology
Services do not track their costs to develop and deliver the in-house training. The Library does
not track travel for training as a separate travel item, even though there is a budget object class
for this expense. The required reporting of SF-182 (Request, Authorization, Agreement, and
Certification of Training) costs to the Internal University are sporadic.

There is no central database to track training dollars budgeted, training dollars expended, number
of employees trained, and whether training dollars expended are tied to the Library‘s strategic
goals. While the Internal University and some service units have training databases, others
maintain only paper files. These databases are different and not interchangeable, consequently,
consolidating training data would require significant effort. The Library must first enter all
training courses into a central database before it can analyze courses and reduce redundancy. A
Learning Management System is employed by most federal agencies to capture this information.

Individual employee training records are not being placed in employee’s Official Personnel
Folders (OPFs). Human Resources Services staff indicate that neither the law nor the Office of
Personnel Management require maintaining training records in OPFs. Yet, the recently
negotiated collective bargaining agreement between the Library of Congress and the Guild
(2910) states “The Library will maintain a record of completed training courses or career
development activities . . . will be filed in or entered into the employee’s OPF.”

According to the Office of Personnel Management’s training handbook: Training law and
regulations require agencies to maintain information concerning the general conduct of agency
training activities for internal management purposes and for the President and Congress to
discharge effectively their respective responsibilities for supervision, control, and review of
these training activities. Agencies should maintain records of the following:

       •   Agency training plans (5 CFR 410.302(d))
       •   Training activities funded and individual employees trained (5 CFR 410.311)
       •   Payments made for travel, tuition, fees, and other necessary training expenses (5 CFR
           410.406)




                                                  18
The Library of Congress                                                 Audit Report No. 2001-PA-105
Office of the Inspector General                                                            April 2003

    •   Evaluation of the results of training and how well agency training activities meet short
        and long-range program needs by occupations, organizations, or other appropriate groups
        (5 CFR 410.602)

Numerous reorganizations of the Library’s training function have resulted in confusion about
authorities and responsibilities for training in the Library. The Training Officer and the Training
Advisory Committee discussed in Library of Congress Regulation (LCR) 2017-1, Staff Training
and Employee Development Policies in the Library of Congress, and LCR 2017-1.1, Training
Responsibilities and Procedures, no longer exist. As a result, numerous tracking and reporting
activities are no longer being accomplished as required by 2017-1.1.

Recommendations

    1. The Library should fund and implement a Learning Management System that will track
       all training costs including budgeted training, number of employees trained, and whether
       training meets the needs of the Library. The Internal University should be responsible
       for the Learning Management System and ensure that it meets the needs of the service
       units’ training and development requirements.

    2. Upon implementation of an effective Learning Management System, the Internal
       University should maintain individual employee training and development information.

    3. The Executive Committee should incorporate into the 2017 LCRs the central collection
       of training data in order to track all training costs including budgeted training, number of
       employees trained, and whether training meets the needs of the Library as required by 5
       CFR 410.

Library Response and OIG Comment

The Deputy Librarian concurs in principle. The Acting Chief of OM&T and the Chief of
Training in consultation with the service and support units, are tasked with reviewing and
making recommendations on a Library-wide Learning Management System. The system will
need to provide library-wide linkage to track training costs, statistics, and employee development
information, among other capabilities. The draft revised training LCR does include the
requirement to centrally collect Library training data and statistics.

The Deputy Librarian’s actions are responsive to our recommendation.




                                                19
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

                                                                                        Appendix A
                                                                                          (Page 1 of 2)

                                  Consolidated List of Recommendations

 I. A & C. The Executive Committee should revise LCRs 2017-1 and 2017-1.1 to clearly
    define the authorities and responsibilities of all Library components for training, and ensure
    that training resources are distributed accordingly.

     B. The Executive Committee should require that every service unit and infrastructure office
     assign a Training and Development Advisory Board member with decision-making
     authority. The Executive Committee should also require the Training and Development
     Advisory Board to annually update the Mission Critical Education Training Matrix utilizing
     the Office of Personnel Management’s Training Needs Assessment Handbook to ensure that
     training needs are prioritized. The Training and Development Advisory Board should
     approve all training until skill gaps have been eliminated.

     D. The Executive Committee needs to involve the Internal University in Library-wide
     strategic planning and the Training and Development Advisory Board, in consultation with
     the Director, Integrated Support Services/Internal University, needs to approve a Strategic
     Plan for the Internal University.

     E. The Training and Development Advisory Board needs to issue guidance and standards
     for the design and development of instructor-led and on-line training courses/modules.

     F. The Training and Development Advisory Board should perform annual training needs
     assessments that are based on a Mission Critical Education Training Matrix that is updated
     annually. Information should be gathered from multiple sources such as top management,
     supervisors, and individual development and strategic plans.

     G. The Executive Committee should task the HR-21 Steering Committee to implement the
     change projects pertinent to training and development such as having Individual
     Development Plans linked to the Library’s strategic goals and defining career paths and
     providing career counseling as outlined in the Library of Congress Human Resources
     Strategic Plan, FY 2000 – 2005.

     The Internal University should regularly schedule supervisory training courses to meet the
     requirement that a new supervisor complete 40 hours of supervisory training in the first six
     months following initial supervisory appointment, and to complete the additional 40 hours
     within one year.




                                                  20
The Library of Congress                                                  Audit Report No. 2001-PA-105
Office of the Inspector General                                                             April 2003

                                                                                        Appendix A
                                                                                          (Page 2 of 2)

      H. The Internal University needs to revise Library training evaluations to include
      determining whether the course meets the Library’s short and long-range needs, and training
      needs based on the Mission Critical Education and Training Matrix. A follow-up evaluation
      should be performed at some period of time after the course to determine if the course
      attendee is utilizing the training in their job.

II.   The Executive Committee should develop a budget standard for training based on needs
      rather than history. We believe a zero-based method along with an updated Mission Critical
      Education and Training Matrix should be used.

III. 1. The Library should fund and implement a Learning Management System that will track
     all training costs including budgeted training, number of employees trained, and whether
     training meets the needs of the Library. The Internal University should be responsible for
     the Learning Management System and ensure that it meets the needs of the service units’
     training and development requirements.

      2. Upon implementation of an effective Learning Management System, the Internal
      University should maintain individual employee training and development information.

      3. The Executive Committee should incorporate into the 2017 LCRs the central collection
      of training data in order to track all training costs including budgeted training, number of
      employees trained, and whether training meets the needs of the Library as required by 5
      CRF 410.




                                                 21
The Library of Congress                Audit Report No. 2001-PA-105
Office of the Inspector General                           April 2003

                                                      Appendix B




                                  22
The Library of Congress                Audit Report No. 2001-PA-105
Office of the Inspector General                           April 2003

                                                      Appendix B




                                  23
The Library of Congress                Audit Report No. 2001-PA-105
Office of the Inspector General                           April 2003

                                                      Appendix B




                                  24
The Library of Congress                Audit Report No. 2001-PA-105
Office of the Inspector General                           April 2003

                                                      Appendix B




                                  25
